No.

IN THE SUPREME COURT OF THE UNITED STATES

VIDEO GAMING TECHNOLOGIES, INC.,
Respondent,
vs.
ROGERS COUNTY BOARD OF TAX ROLL CORRECTIONS, a political
subdivision; CATHY PINKTERTON BAKER, Rogers County Treasurer, in her
official capacity; and SCOTT MARSH, Rogers County Assessor, in his official
capacity,
Petitioners.

On Petition for Writ of Certiorari
to the Oklahoma Supreme Court

APPLICATION FOR EXTENSION OF TIME
TO FILE A PETITION FOR WRIT OF CERTIORARI

Matthew B. Free
Counsel of Record
Thomas A. Le Blanc
BEST & SHARP
One West Third Street, Suite 900
Tulsa, Oklahoma 74103
(918) 582-1234
mfree@bestsharp.com
tleblanc@bestsharp.com

Matthew Ballard
Todd Wagner
Rogers County District Attorney's Office
200 S. Lynn Riggs Blvd.
Claremore, Oklahoma 74017
(918) 923-4960
Todd.Wagner@dac.state.ok.us
Matt.Ballard@dac.state.ok.us

Counsel for Petitioners

March 3, 2020

1

APPLICATION FOR EXTENSION OF TIME TO FILE A PETITION FOR
WRIT OF CERTIORARI
To the Honorable Sonia Sotomayor, Associate Justice of the United States and
Circuit Justice for the Tenth Circuit:
Pursuant to Supreme Court Rules 13.5, 22, and 30.2, Petitioners respectfully
request a 59-day extension of time, up to and including May 15, 2020, within
which to file a petition for writ of certiorari to review the judgment of the
Oklahoma Supreme Court in this case.
The Opinion of the Oklahoma Supreme Court is reported at Video Gaming
Technologies, Inc., Plaintiff, v. Rogers County Board of Tax Roll Corrections, et•.
al., 2019 WL 6877909, P.3d (Okla. 2019) and attached as Exhibit A.
.Th. e.Ju-dgment,of the Oklahoma ,Supreme Court rwas,e,ntered on:December 17,
2019. Rehearing was not sought by any party.
Unless extended, the time for filing a petition for writ of certiorari will expire,,,
on March 17, 2020.
This Application is being filed more than ten (10) days priOr to said date.
Pursuant to Rule 13.5, a Justice may, for good cause, extend the time for filing
a petition for a writ of certiorari for a period not exceeding 60 days.
The jurisdiction of this Court would be invoked under 28 U.S.C. §1257(a). E.g.,
Hawaii v. Office of Hawaiian Affairs, 556 U.S. 163, 171-172 (2009).
Petitioners' Petition for Writ of Certiorari will address whether the Indian
Gaming Regulatory Act, 102 Stat. 2467, 25 U.S.C. § 2701 et seq., and the

2

"particularized inquiry" balancing test developed in White Mountain Apache
Tribe v. Bracker, 448 U.S. 136 (1980) ("Bracher") preempt application of a
neutrally applicable Oklahoma state ad valorem tax on personal property
owned by a non-Indian, out-of-state corporate entity and located in Rogers
County, State of Oklahoma.
A federally-recognized Indian tribe is not a party to this litigation. Rather, the
personal property at issue (e.g., slot-machines) were leased by Respondent to
Cherokee Nation Entertainment, LLC, and said devices were used in its casino
operations.
The Oklahoma Supreme Court found that Respondent was protected from
State ad valorem taxation by application of the federal preemption balancing
test contained in Bracker. Exhibit A.
In its opinion, the Oklahoma Supreme Court found that the "comprehensive
regulations of IGRA occupy the field with respect to ad valorem taxes imposed
on gaming equipment used exclusively in tribal gaming." Exhibit A. And that,
due to (a) the nature of those regulations, (b) the federal policies threatened by
the ad valorem tax, and (c) the "lack of justification" for the tax "other than as
a generalized interest in raising revenue," the taxing of such gaming
equipment — owned by a non-Indian private corporation — was "preempted."
Exhibit A.
The opinion of the Oklahoma Supreme Court is in direct conflict with the
holding of the Second Circuit Court of Appeals in Mashantucket Pequot Tribe
3

v. Town of Ledyard, 722 F.3d 457 (2d Cir. 2013), where the Court found that a
town's imposition of a state personal property tax on the lessors of slot
machines used by a tribe at a casino was not preempted by the IGRA or the
Bracher balancing test.
For that reason, Petitioners will assert that certiorari review is necessary
pursuant to the guidance offered by Supreme Court Rule 10(b) ("[A] state court
of last resort has decided an important federal question in a way that conflicts
with the decision of another state court of last resort or of a United States court
of appeals . . .").
Petitioners have a strong interest in collection of ad valorem taxes, as said
taxes help fund the operation of Rogers County government, schools, law
enforcement, health services, roads, and other government services within
Rogers County, State of Oklahoma. The Oklahoma Supreme Court discounted
this interest as a "generalized interest in raising revenue" and found it largely
irrelevant pursuant to its Bracher analysis. Exhibit A at ¶41. The Petition for
Writ of Certiorari will highlight deficiencies in this reasoning with respect to
an ad valorem tax imposed on a non-Indian, out-of-state corporate entity.
Undersigned counsel of record for Petitioners requests this extension of time
because he was recently retained in this matter and will require additional
time to review and analyze the record and the relevant case law in order to
draft the Petition for Writ of Certiorari. Previous general counsel for
Petitioners, who drafted most of the underlying briefing, is no longer employed
4

by Petitioners and is unable to directly assist on the substantive briefing.
Finally, the undersigned counsel of record has several additional appeals
pending in the Oklahoma state court system that will require attention and
briefing during the pendency of this proceeding. For that reason, the
undersigned counsel reasonably believes an extension of fifty-nine (59) days to
file the Petition for Writ of Certiorari is appropriate.
16. Accordingly, Petitioners respectfully request that an order be entered
extending the time to file a Petition for Writ of Certiorari for fifty-nine (59)
days, up to and including May 15, 2020.
DATED:

March 3, 2020

Respectfully submitted,
/s Matthew B. Free
Matthew B. Free
Counsel of Record
Thomas A. Le Blanc
BEST & SHARP
One West Third Street, Suite 900
Tulsa, Oklahoma 74103
(918) 582-1234
mfree@bestsharp.com
tleblanc@bestsharp.com

Matthew Ballard
Todd Wagner
Rogers County District Attorney's Office
200 S. Lynn Riggs Blvd.
Claremore, Oklahoma 74017
(918) 923-4960
Todd.Wagner@dac.state.ok.us
Matt.Ballard@dac.state.ok.us
Counsel for Petitioners Rogers County Board
of Tax Roll Corrections, a political
subdivision; Cathy Pinkerton Baker, Rogers
5

County Treasurer, in her official capacity;
and Scott Marsh, Rogers County Assessor, in
his official capacity.

6

